INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS
         Appalachian Regional Commission
         October 1, 2012–March 31, 2013
On Cover (clockwise from top left):

Coal Heritage Byway, Wise County, Virginia. Photo by Randy Rose, Courtesy of National Scenic Byways
Online (www.byways.org)

Maury River, Glasgow, Virginia. Photo by Michael L. Smith/U.S. Fish and Wildlife Service

Blue Ridge Parkway, Virginia. Photo by David West, Courtesy of National Scenic Byways Online
(www.byways.org)

Shenandoah National Park. Photo courtesy of National Park Service
May 24, 2013

MEMORANDUM FOR                  THE FEDERAL CO-CHAIR

Subject:                        Semiannual Report to Congress

In accordance with the requirements of the Inspector General Act Amendments of 1988, Public Law
100-504, the Inspector General Reform Act of 2008, Public Law 110-409, and the Dodd-Frank Wall
Street Reform and Consumer Protection Act, Public Law 111-203. I am pleased to submit the Office of
Inspector General’s Semiannual Report to Congress.

This Semiannual Report to Congress summarizes the activities of our office for the 6-month period
ending March 31, 2013. During this fiscal period, we issued fifteen reports, followed-up on open
recommendations and monitored contractor performance.

Also during this period, the Inspector General continued to serve as a member of the Council of the
Inspectors General on Integrity & Efficiency (CIGIE), its Audit Committee and participate in National
and Intergovernmental Audit Forums. The Inspector General continues to chair a smaller OIG group in
order to address issues directly impacting these offices and made presentations to two groups
representing ARC grantees.

The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988,
provides that this report be forwarded to appropriate Congressional committees within 30 days and that
you provide whatever additional comments you consider appropriate.

I appreciate the Commission’s cooperation with the Office of Inspector General in the conduct of our
operations.



Inspector General

Enclosure
                                      TABLE OF CONTENTS



                                                                                                     Page

Executive Summary                                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

 I.     Introduction                             .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

 II     Background                                .................................1

Appalachian Regional Commission                      ...............................1

Office of Inspector General                       .................................5

 III.   OIG Activity                               ................................6

Audits, Inspections, Evaluations & Reviews            ...............................6

Investigations                                     . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . 8

Other                                              . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . 8

 IV.    Reporting Fraud, Waste, and Abuse          ................................9

 V.     Legislative & Regulatory Review                .......... ....................9

 VI. Dodd-Frank Legislation                            …………… ………………………...10



Appendices

        A.       Schedule of Reports Issued October 1, 2012 thru March 31, 2013

        B.       Schedule of Audits, Inspections, Evaluation and Review Reports of Questioned or
                 Unsupported Cost

        C.       Schedule of Audit, Inspection, Evaluation and Review Reports with Recommendations
                 that Funds be put to Better Use and Summary of Management Decision

        D.       Schedule of Audit, Inspection, Evaluation and Review Reports with Recommendations
                 that Funds be put to Better Use and Summary of Management Decision

        E.       Definition of Terms Used
                                        EXECUTIVE SUMMARY


ARC grant operations represent the most significant part of ARC’s programs. For this reporting period
our activities included the issuance of fifteen reports, follow-up on significant recommendations in prior
reports, and monitoring contractor performance of grant reviews. This included eleven grant audits
issued during the reporting period, three reports dealing with grant management, and the 2012 Financial
Statement Audit.

Grant management reviews emphasized ARC follow-up on older open Child Agency and ARC
Administered grants and applicable policies and procedures. Continued ARC actions, including follow-
up on basic agency grants identified in prior reports as needing follow-up resulted in approximately 2.5
million dollars in actual or intended recoveries during the past six months that can be put to better use.

Our follow-up review of older open grants administered by Child Agencies identified the need for
continued emphasis on timely follow-up on grants with limited activity. Sixty three grants (open for
over 24 months) were identified without any disbursement activity since grant approval with the longest
being 121 months. ARC funds of $24,370,122 were approved for these grants, including $7,989,643 for
grants with no ARC disbursements at least four years after approval.

Our review of ARC administered grants identified substantial progress with respect to inactive older
grants. The ARC grant management system identified only 17 grants totaling $1,992,374 for which no
disbursements were noted during the 18 months since approval.

Other issues relating to timely follow-up of open grants status included identifying grants with expired
end dates, closing of grants with zero balances, and increased use of controls available to initiate action
on inactive grants, including increased use of ARC guidelines that allow for action on projects not
started within 18 months of approvals.

Individual grant reviews and ARC management of the grant process disclosed that grants were generally
implemented in accordance with applicable regulations and project objectives. These reviews included
recommendations with respect to supporting documentation for matching funds, timely submission of
progress and final reports, and identification of performance outcomes. The FY 2012 Financial audit
received an unqualified opinion for the fifth conservative year.

Decisions and/or OMB guidance with respect to implementing certain sections of Dodd-Frank
Legislation have not been issued. The primary issues are the designation of full Commissions/ Boards
as Agency Heads at designated Federal Entities (DFEs), such as ARC, who’s Commission, consists of
primarily Non-Federal Officials and the status of Federal OIG staff, including the IG.

The IG continues to chair a group of smaller OIGs to address issues that have particular impact on these
offices. The IG is also an active member of the Council of Inspectors General and its Audit committee.




                                                     ii
                         PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT

The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                    Reporting Requirements


Section 4(a)(2)    Review of legislation and regulations                                                    Page 9

Section 5(a)(1)    Problems, abuses, and deficiencies                                                       Pages 6-7

Section 5(a)(2)    Recommendations with respect to problems, abuses, and deficiencies                       Pages 6-7

Section 5(a)(3)    Prior significant recommendations not yet implemented                                    **

Section 5(a)(4)    Matters referred to prosecutive authorities                                              *

Section 5(a)(5)    Summary of instances where information was refused                                       *
and    6(b)(2)

Section 5(a)(6)    Listing of audit reports showing number of reports and dollar value                      App A
                   of questioned costs

Section 5(a)(7)    Summary of each particularly significant report                                          **

Section 5(a)(8)    Statistical table     showing number of reports and dollar value of                      App B
                   questioned costs
Section 5(a)(8)    Statistical table     showing number of reports and dollar value of                      App C
                   questioned costs
Section 5(a)(8)    Statistical table     showing number of reports and dollar value of                      App D
                   questioned costs
Section 5(a)(8)    Statistical table     showing number of reports and dollar value of                      App E
                   questioned costs




*      None.
**     See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports (including recommendations).
                                                               iii 
I.        INTRODUCTION

The Inspector General Act Amendments of 1988, (Pub. L. No. 100-504) provides for the establishment
of an Office of Inspector General (OIG) at Designated Federal Entities (DFEs), including the ARC. The
ARC OIG became operational on October 1, 1989, with the appointment of an IG and provision of
budgetary authority for contracted audit and/or investigation activities.

II.       BACKGROUND

A.        APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965, (Pub.L. No. 89-4) established the Appalachian
Regional Commission. The Act authorizes a Federal/State partnership designed to promote long-term
economic development on a coordinated regional basis in the 13 Appalachian States. The Commission
represents a unique experiment in partnership among the Federal, State, and local levels of Government
and between the public and private sectors. It is composed of the Governors of the 13 Appalachian
States and a Federal representative who is appointed by the President. The Federal representative serves
as the Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-
Chair.

   -    Through joint planning and development of regional priorities, ARC funds are used to assist and
encourage other public and private resources to address Appalachia's unique needs. Program direction
and policy are established by the Commission (ARC Code) with the vote of a majority of the State
members and the affirmative vote of the Federal Co-Chair. Emphasis has been placed on highways,
infrastructure development, business enterprise, energy, human resources, health and education
programs.

  -    To ensure that funds are used effectively and efficiently, and to strengthen local participation,
ARC works with the Appalachian states to support a network of multicounty planning and development
organizations, or local development districts (LDDs), throughout the Region. The 73 LDDs cover all
420 counties in Appalachia. The LDDs’ roles include identification of priority needs of local
communities and assisting with participation in ARC progress.

   -    Administratively, the Commission has a staff of 53 persons that includes 50 Commission
employees responsible for program operations, and the office of the Federal Co-Chair that includes the
three person OIG staff. The Commissions’ staff administrative expenses, including salaries, are jointly
funded by Federal and State funds.

      -   The Commission's appropriation for FY 2013 is $64.6 million.

Although Congress changed the funding method for the Appalachian Development Highway System
(ADHS) in July 2012, ARC continues to support and participate in completion of the ADHS including
fulfilling planning and approval responsibilities with respect to approximately two billion dollars of
funds remaining available prior to the new legislation.



                                                    1
ARC’s non-ADHS funds are distributed to state and local entities in accordance with an allocation
formula intended to provide fair and reasonable distribution of available resources. ARC staff has
responsibilities for program development, policy analysis and review, grant development, technical
assistance to States, and management and monitoring.

In order to avail itself of federal agency expertise and administrative capability in certain areas, ARC
often relies on other departments and agencies for program administration, especially with respect to
highways and infrastructure projects. For example, the Appalachian Regional Development Act
authorizes the Secretary of Transportation to administer the Commission's highway programs, with the
Commission retaining responsibility for priorities, highway locations, and fund allocations. ARC relies
on Child Agencies, including the Departments of Agriculture, Commerce and Economic Development
Administration and the Tennessee Valley Authority, to administer and monitor construction related
grants.




                                                    2
ARC ORGANIZATION CHART




        3
 
 
 
B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent Federal audit and investigative unit that reports directly to the Agency
Head.

Role and Authority

The Inspector General Act of 1978, (Pub.L. No. 95-452), as amended in 1988, states that the IG is
responsible for (1) audits and investigations; (2) review of legislation; and (3) recommendation of
policies for the purpose of promoting economy and efficiency in the administration of, or preventing and
detecting fraud and abuse in, the program and operations of the establishment. In this regard, the IG is
responsible for keeping the Agency Head and Congress fully informed about the problems and
deficiencies in ARC programs and operations and the need for corrective action. The IG has authority to
inquire into all ARC programs and activities that are federally funded. The inquiries may be in the form
of audits, surveys, investigations, inspections, evaluations, personnel security checks, or other
appropriate methods. The two primary purposes of these inquiries are (1) to assist all levels of ARC
management by identifying and reporting problem areas, weaknesses, or deficiencies in procedures,
policies, program implementation, and employee conduct and (2) to recommend appropriate corrective
actions.

Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are provided under the ARC Code and implemented by
the Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operation of the OIG neither replaces established lines of operating authority
nor eliminates the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.

Funding and Staffing

The OIG funding level for FY 2013 is $642,000. Staffing consists of the Inspector General, an Assistant
Inspector General for Audit, and a Confidential Assistant. Grant review activities continue to emphasize
use of contracted services (e.g., independent public accounting firms or other OIG offices) supplemented
by programmatic and performance reviews directed by OIG staff.

In order to comply with Pub.L. No. 110-409, the Inspector General Reform Act of 2008, the OIG
funding for FY 2013 includes reimbursement of other IGs for counsel, audit and investigative services
via Memorandums of Understanding. We have used the Department of Commerce OIG Legal Counsel
to supplement our activities. We also use other OIG offices to provide investigative services as needed.



                                               5
This approach is deemed the most appropriate to date in view of the nature of ARC operations and
limited resources.

In line with legislation enacted to form more regional commissions, the IG supports consolidating small
regional commission OIG offices into one OIG organization to better assure sufficient OIG resources to
operate more efficiently, effectively and economically.

III. OIG ACTIVITY

A. Audits, Inspections, Evaluations and Reviews

During the reporting period fifteen reports were issued, including 11 grant audit reports, three
management reports and the FY 2012 Financial Statement Audit.

The grant management reviews focused on grant management from applications to closing,
identification of grants without disbursement over lengthy periods, follow-up actions to address these
grants and applicable grant management policies, procedures and controls. These reviews were
consistent with GAO and OMB emphasis and reports previously issued by ARC-OIG.

A primary criteria used to identify older inactive open grants was ARC guidelines that provide that, at
the request of a state, the Commission may revoke or revise its approval of any project if the work
intended to be assisted is not under way within 18 months after the date of approval of such a project.

A follow-up review of older grants approved and partially funded by ARC, but administered by other
agencies (Child Agencies) and grants administered directly by ARC disclosed continuing progress with
respect to timely follow-up actions, including de-obligations and identifying the status of projects.
For example, approximately $1.6 million dollars was de-obligated after follow-up on older inactive
grants in prior reports and approximately $845,000 will be de-obligated when final reports are received
from a Child Agency.

In addition, we identified 63 Child Agency grants with ARC funding approximating $24.3 million for
which the period of no disbursement of ARC funds ranged from 24 to 121 months. This included 21
grants with ARC funds approximating $8 million for which no ARC funds had been disbursed as of four
or more years since approval.

Follow-up actions on 76 older open Child Agency grants included in our prior report identified
subsequent start-up actions in many cases and de-obligations of $1.5 million in three instances. 52 of
the grants included in prior reports were included in this report as having no ARC disbursements.

ARC has initiated follow-up action, including introduction of the Basic Agency Monitoring Report
(BAMR), which will provide detailed annual Child Agency reporting to ARC on the status of older open
projects including expenditures, projects phase and reason for delays. As of our review the initial
BAMR reports were submitted by the responsible agencies in 11 of the 13 Appalachian states.

Although there remained no disbursements of ARC funds for most of the cases cited in our prior report,
the first BAMR reports identified project start up in many cases. The control provides an improved
basis for effective follow-up on grants with no ARC disbursements, including assessments about
potential grant actions such as cancellation, de-obligations, long un-liquidated obligations, and
justifications for lengthy delays and continued need for ARC funds.

                                                     6
Also, 27 additional Child Agency grants for which no disbursements had been reported 18 to 24 months
subsequent to approval and having ARC balances approximating $7.7 million were also identified as
were 13 grants valued at approximately $1 million for which there were initial disbursements followed
by no disbursements for lengthy periods.

In 22 cases ARC records noted that approximately $845,00 could be de-obligated if necessary closing
information was received from the Child Agency administering these grants.

We recognize that Child Agencies administer construction projects and that various factors contribute to
delayed start up for construction grants. However, periodic follow-up and documented decisions with
respect to older open grants and projects for which no disbursements have been made is considered
appropriate.

With respect to older open grants directly administered by ARC we identified only 17 cases with ARC
funding approximating $2 million, for which, with two exceptions, no ARC disbursements had been
made 18 to 30 months since approval. In six cases, grants with disbursements but no recent activity for
lengthy periods (15 to 58 months) had balances totaling $652,000.

ARC administered grants identify estimated project end dates and a report identified 45 grants valued at
approximately $2.3 million with expired end dates. This included 9 grants, valued at about $1 million
for which no funds had been disbursed at least 18 months since grant approval. Adherence to end dates
is particularly important since, without justified and documented extensions, expenditures incurred after
identified end dates are generally considered un-allowable expenses.

Overall, only about one percent of ARC grants approved more than four years prior to 3/31/13 had no
disbursements although the Child Agency administered grants have a higher percentage of these grants.

A primary recommendation was to increase use of the 18 month provision which, in correlation with the
BAMR, would provide a more effective control for identifying projects needing follow-up and potential
de-obligations. Other recommendations pertained to continued emphasis on, and follow-up on older
inactive grants, addressing grants with expired end dates and closing grants with zero balances.

A review of the grant management process and grant audits reported overall implementation of grants in
accordance with policies, procedures and regulations. Recommendations emphasized documentation of
matching costs, timely progress reports, improved contracting practices, emphasis on servicing primary
clients, additional policies and procedures and identifying outcomes. Unsupported costs approximating
$163,000 were identified in grant audits.

ARC Financial Statement Audit

The financial statement audit for FY 2012 was issued with a clean opinion. The prior four reports have
also been issued with a clean audit opinion since ARC adopted federal financial reporting rules in 2007.




                                                    7
Peer Review

Offices of the Inspectors General (OIGs) are required to perform (and undergo) reviews of other OIG
offices every three years to ensure policies and/or procedural systems are in place that provide
reasonable assurance of compliance with government auditing standards (GAS). The next audit peer
review of ARC OIG is scheduled for FY 2013.

The current audit peer review process, as legislatively mandated, assesses compliance with auditing
standards but does not address issues impacting the efficiency and effectiveness of audit operations
which comprises the largest segment of OIG offices.

The IG continues to recommend to the Council of Inspector General and Legislative Staff that OIG peer
reviews be revised to incorporate assessments of key OIG operational elements such as: planning; timely
reporting; staff development, including training, utilization and supervision; audit follow-up and
inclusion of actual results in Semi-Annual and Annual OIG reports based on implementation of
recommendations

B. INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter has been referred to the Federal
Bureau of Investigation or assistance was contracted with another Federal OIG. Also, the results of
investigations may be referred to the appropriate Federal, State, or local prospective authorities for
action.

C. OTHER

Smaller OIG Groups

Smaller OIG offices have some significantly different operational concerns than larger OIG offices in
trying to maintain effective and efficient oversight of agency programs. One challenge involves the
significant human and capital resources being allocated to the ever growing number of mandated
reviews.

The IG is the current coordinator/chair of this group that meets periodically to discuss such issues and
recommends actions/best practices to facilitate smaller OIG operations.

Requests for Information

Each year we receive and comply with requests for information from various governmental entities
compiling statistics on OIG offices or their auditee agencies. CIGIE requests information for its annual
OIG profile update and compilation of OIG statistics. The yearly compilation summarizes the results of
audit and inspection activities for of all federal OIG offices.



                                                    8
Information provided concerns the dollar value of management decisions related to questioned costs and
funds put to better use and OIG recommendations related to questioned costs. The House Committee on
Oversight and Government Reform request information concerning the number and type or status of our
recommendations. We also comply with information requests from other government regulatory bodies.

Appalachian Development Highway System (ADHS) Audits

Since Fiscal Year 1999, ADHS has been funded by the Highway Trust Fund, which is administered in
part by the U.S. Department of Transportation (DOT). ARC retains certain programmatic
responsibilities, but the funding source is the Highway Trust Fund. Under new legislation the ADHS is
a part of a larger Surface Transportation Program grant to Appalachian states, with the states using the
funding at their own direction.


Implementation of OIG Reform Act

The OIG has implemented all of the requirements of Pub.L. No. 110-409 the Inspector General Reform
Act of 2008. A Memorandum of Agreement for Counsel Services has been in place with the
Department of Commerce OIG.

Going Green

ARC management has implemented green measures within the organization's internal operations.
Examples include a document scanning system that has been linked to ARC’s e-mail system and an
expansion of ARC net to include operational elements. ARC continues to encourage state partners to
move to a paperless application process. Reduction in paper utilization can reduce cost, improve the
timeliness of management decisions through better document storage and retrieval, and helps to reduce
demands on our earth's ecological systems. Our office, in alignment with management's initiative, is
committed to “going green” and we continue to work toward that end.

IV.    REPORTING FRAUD, WASTE, AND ABUSE

A region wide toll-free hotline is maintained to enable direct and confidential contact with the ARC
OIG, in line with governmental and longstanding OIG initiatives as identified in the IG Act of 1978; to
afford opportunities for identification of areas subject to fraud, waste, or abuse. Also, in accordance
with the Inspector General Reform Act of 2008, the ARC OIG implemented another communication
channel allowing anonymous reporting of fraud, waste or abuse via a link on our website’s home page.
The web link is, http://ig.arc.gov/.

V.     LEGISLATIVE AND REGULATORY REVIEW

The OIG continues to review and provide comment on legislation germane to ARC, OIG and the OIG
community. Our comments are provided, as appropriate to agency officials, and/or to the CIGIE for
incorporation with comments from all other OIGs.




                                                    9
VI.    DODD-FRANK LEGLISATION – Reporting to Full Commission

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Pub. L. No.111-203) amended the
Inspector General Act changing the entity head of ARC from the Federal Co-Chair to the
Commission. The Office of Management & Budget (OMB) has not yet provided guidance on these
changes through the required notice and publication of the List of Designated Federal Entities (DFEs)
which are to be published annually under the IG Act. This Act provides that the Inspector General report
to the full Commission that includes the Federal Co-Chair and 13 Appalachian Governors.

We believe ARC and other economic development Commissions are among the few DFEs that have a
majority of non-Presidentially (or non-federal) appointed Commission members. Although the Dodd-
Frank legislation provides tenure protection to DFE IG’s, a question remains as to whether some of the
provisions were intended to apply to Commission’s composed primarily of non-Federal, non-
Presidentially appointed members. In addition to surfacing the issue of non-Federal appointees authority
to employ IG’s, whose primary responsibility is to oversight the use of Federal funds, the related issue
of the federal versus the non-federal status of the OIG Office, needs Congressional or OMB resolution.

We have recommended that DFE’s having a majority of non-Presidential appointees as Commission or
Board members be exempt from the OIG provisions in the Dodd-Frank Act, or if the Agency Head
remains the full Commission that the OIG Office, including the IG and current Federal OIG Staff,
remain Federal.

Pending additional OMB guidance or direction on Dodd-Frank issues that impact the ARC OIG the
Commission considers the legislated requirement for the entire Commission to be the Agency Head.
Decisions with respect to the Federal/non-Federal status of the OIG have been delayed until the final
effect of the Dodd-Frank legislation has been settled.




                                                   10
                                                                                                 APPENDIX A



             SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                       ISSUED OCTOBER 1, 2012 TO MARCH 31, 2013




Report No.                    Report Title/Description        Program Dollars or   Questioned/      Funds to Better
                                                               Contract/Grant      Unsupported         Use***
                                                                  Amount*            Costs**



 13-01       Financial Statement Audit



 13-02       Virginia Technical Assistance                      $240,000



 13-03                                                           $440,200          $ 45,675
             Mississippi State University

 13-04                                                           $600,000          $ 93,191
             Project Navigator Mississippi State University


 13-05       Tri County Council of Western MD LDD                $148,000



 13-06                                                           $150,000
             Kid One Transport System, AL

 13-08                                                           $550,000
             KY Science of Technology Corp.


 13-09       KY Research Foundation                              $475,000          $ 22,618
             Youth E-Discovery Challenge

 13-10                                                           $220,000
             Tennessee Technical Assistance

 13-11                                                           $341,497
             Fentress County TN Children’s Center

 13-13                                                           $223,300
             Georgia Technical Assistance

                                                                 $ 84,000          $ 1,388
 13-14       WV Region II planning and Development Council
    13-17   ARC Grant Management

                                                     $33,082,453
    13-18   Older Child Agency Administered Grants

                                                     $2,644,551
    13-19   Older ARC Administered Grants

    Total                                            $39,198,8011   $162,8722   $2,548,2873




1
  Includes $2,644,551 applicable to 11 grant reviews and $36,530,591 applicable to
older grants recommended for follow-up to determine grant status and potential for
closing and recoveries and use of funds for other needed projects in Appalachia.
2

3
  Involves primarily unsupported matching funds.
  Additional grants and values included in prior reports for which recovery actions
were initiated or completed.
                                                                             APPENDIX B

                   SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                              OF QUESTIONED OR UNSUPPORTED COSTS

                                         No. of    Questioned         Unsupported
                                         Reports     Costs            Costs


A.       For which no management              $0   $0                    $0
decision was made by the
commencement of the reporting period



B.        Which were issued during the        4
reporting period



           Subtotals (A + B)                  4


C.       For which a management
decision was made during the reporting
period



   (i)     dollar value of disallowed         1    $0                   $0
   costs




   (ii)  dollar value of costs not            1    $0                   $0
   disallowed



D.        For which no management             2    $0                   $0
decision has been made by the end of
the reporting period



E.      Reports for which no                  0    $0                   $0
management decision was made within
6 months of issuance
                                                                                         APPENDIX C


       SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
      RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                               MANAGEMENT DECISIONS




                                                                         No. of
                                                                         Reports   Dollar Value


 A.     For which no management decision was made by the                   0            $0
        commencement of the reporting period

 B.     Which were issued during the reporting period                      2            $0

        Subtotals (A + B)                                                  2            $0

 C.     For which a management decision was made during the
        reporting period

        (i)    dollar value of recommendations that were agreed to by
               management

               --based on proposed management action                       2            $2,548,287 1

               --based on proposed legislative action                      0            $0


        (ii)   dollar value of recommendations that were not agreed to     0            $0
               by management



 D.     For which no management decision has been made by the end          0            $0
        of the reporting period

 E.     Reports for which no final management decision was made            0            $0
        within 6 months of issuance


1. Actions resulting from ARC follow-up on grants recommended for follow-up in prior
reports. Available funds to be used for additional needed projects in Appalachia. Follow-up
actions on current period reports will be identified in subsequent semi-annual reports.
                                                                               APPENDIX D

SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
  RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                  MANAGEMENT ACTIONS


                                                                             Amounts
                                                           Amounts         Agreed to by
               OIG Audit                  Number of      Recommended       Management
                Reports                    Reports          by OIG         (Disallowed)




A.    For which final action by               0              $   0            $   0
management had not been taken by the
commencement of the reporting period

B.    On which management decisions           2              $   0            $   0
were made during the reporting period

C.     For which final action was taken
by management during the reporting
period

Dollar value of recommendations that          2              $   0          $ 1,682,337
were actually completed

(ii)   the dollar value of                    0              $   0            $   0
recommendations that management has
subsequently concluded should not or
could not be implemented or completed

   D.     For which no final action had       1              $   0            $865,950
          been taken by the end of the
          reporting period



**Prior Reports recommended follow-up on older open grants, and resulting agency actions are
identified in subsequent SARs, ARC follow-up and actions on inactive grants is continuing and
ongoing process.
                                                                                          APPENDIX E


                                  DEFINITIONS OF TERMS USED



The following definitions apply to terms used in reporting audit statistics:

Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm. 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
  Appalachian Regional Commission

      Office of Inspector General
1666 Connecticut Avenue, NW, Suite 700
     Washington, DC 20009-1068
